Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Department of State - OIG
               Month Ending Date: 08/31/2010

                                                                  Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau         Recovery Act TAFS         Award Type        US Indicator        Total Obligations     Total Gross            Direct or            Ordering TAFS
No.                                                                                                                          Outlays            Reimbursable
      Department of State - OIG    (19-0530 2009 \ 2010)       Contracts and         Y - US              $37,608            $27,070
                                   State - OIG - Recovery    Orders (including
 1                                 Act                         modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)       Contracts and         Y - US              $137,618           $124,964
                                   State - OIG - Recovery    Orders (including
 2                                 Act                         modifications)                                                                 Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $20,000            $15,873
                                   State - OIG - Recovery   Orders (including
 4                                 Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $108,308           $92,659
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $118,799            $7,149
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137             $5,064
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $164,159           $17,285
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $88,574            $18,775
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $72,249            $28,651
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137            $12,040
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $95,137             $4,917
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $137,543              $0
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $437,002           $33,410
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $9,995                $0
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $18,450               $0
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A
      Department of State - OIG    (19-0530 2009 \ 2010)    Contracts and            Y - US              $16,761               $0
                                   State - OIG - Recovery   Orders (including
                                   Act                      modifications)                                                                    Direct             N/A


                                                   Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           FY 2009 Non-           Total FY 2009      Total FY 2009    FY 2010 Non-Recovery    Total FY 2010         Total FY 2010
No.                                  Recovery Act TAFS         Obligations       Gross Outlays          Act TAFS           Obligations          Gross Outlays
      Department of State - OIG    (19-0529 2009) State -              $59,536           $59,536 (19-0529 2010) State -             $82,752            $82,752
 1                                 OIG                                                           OIG
 2
Monthly Update Report Data (sheet 2 of 5) Version 5.0a
    Reporting OIG: Department of State - OIG

Month Ending Date: 8/31/2010


                                                         Fiscal Year 2009
                                                                       Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                    Reviews*
                                                                        Questioned Costs
                             Recoveries (FY 09):
                                                                                  (FY 09):
                                                                       Unsupported Costs
                   Forefeitures/Seizures (FY 09):
                                                                                  (FY 09):
                                                                       Recommendations
                      Estimated Savings (FY 09):                         for Better Use of
                                                                            Funds (FY 09):



                                                         Fiscal Year 2010
                                                                       Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                    Reviews*
                                                                        Questioned Costs
                             Recoveries (FY 10):
                                                                                  (FY 10):
                                                                       Unsupported Costs
                   Forefeitures/Seizures (FY 10):
                                                                                  (FY 10):
                                                                       Recommendations
                      Estimated Savings (FY 10):                         for Better Use of
                                                                            Funds (FY 10):


                                                  Cumulative Since 2/17/2009
                                                                     Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                  Reviews*
                                                                        Questioned Costs
                       Recoveries (cumulative):       $0.00                                      $0.00
                                                                            (cumulative):
                           Forefeitures/Seizures                       Unsupported Costs
                                                      $0.00                                      $0.00
                                   (cumulative):                            (cumulative):
                                                                        Recommendations
                               Estimated Savings
                                                      $0.00               for Better Use of      $0.00
                                    (cumulative):
                                                                       Funds (cumulative):
Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 8/31/2010

                            FTE Working on Recovery
                                                                                                                                          Testimonies:
      Fiscal Year              2009            2010              Cumulative
       Newly Hired FTE
                              0.00             0.00                  0.00                                                         Provided (monthly):        0
           (cumulative):

FTE Funded by Recovery
                              0.08             1.52                  1.60                                                       Provided (cumulative):       0
 Act Funds (cumulative):

    FTE Not Funded by
    Recovery Act Funds        0.50             0.50                  1.00
         (cumulative):

              Complaints                           Whistleblower Reprisal Allegations                Investigations           Audits / Inspections / Evaluations /         Training / Outreach
             Monthly Data                                    Monthly Data                            Monthly Data                        Monthly Data                         Monthly Data
                                                                                                                                                                           Training Sessions
              Received:         0                                      Received:        0      Opened (this month):     0       Initiated (this month):      0                                   0
                                                                                                                                                                                  Provided:
                                                                                             Active (as of the end of         In Process (as of the end
                                                                       Accepted:        0                               0                                   11          Individuals Trained:     0
                                                                                                         the month):                    of the month):
                                                                                                                                      Completed Final
                                                                                                                                                                           Hours of Training
                                                                                                   Pending Decision:    0              Published Work        0                                   0
                                                                                                                                                                                  Provided:
                                                                                                                                              Products:
                                                                                                                                       Priority Interim
                                                                                                                                                                          Outreach Sessions
                                                                                              Closed without Action:    0              Published Work        0                                   0
                                                                                                                                                                                Conducted:
                                                                                                                                              Products:
                                                                                                                                    Unpublished Work
                                                                                               Prosecution Declined:    0                                    0
                                                                                                                                            Products*:

                                                                                             Referred for Alternative
                                                                                                                        0                 QCRs Issued:       0
                                                                                                          Resolution:

                                                                                                       Convictions,
                                                                                                Settlements, Pleas,      0
                                                                                                        Judgments:
   Cumulative Data Since 2/17/2009                 Cumulative Data Since 2/17/2009          Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                    Completed Final
                                                                                                                                                                           Training Sessions
              Received:         3                                      Received:        1     Closed without Action:    0            Published Work       7                                      2
                                                                                                                                                                                  Provided:
                                                                                                                                           Products:
                                                                                                                                     Priority Interim
                                                                       Accepted:        0      Prosecution Declined:    0            Published Work       0             Individuals Trained:     35
                                                                                                                                           Products:
                                                                                             Referred for Alternative               Unpublished Work                       Hours of Training
                                                                                                                        0                                    1                                   55
                                                                                                          Resolution:                      Products*:                             Provided:
                                                                                                        Convictions,
                                                                                                                                                                          Outreach Sessions
                                                                                                 Settlements, Pleas,    0                 QCRs Issued:       0                                   4
                                                                                                                                                                                Conducted:
                                                                                                         Judgments:
                                                                                                  Cumulative Total:     0           Cumulative Total:        8
Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 08/31/2010

       No.                         OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Initiation of up to eight audits that will be conducted by IPAs in El Paso, Texas, for IBWC Recovery Act contracts that will
         1
                     include contractor compliance with labor standards and regulations
         2



         6
         7
         8
         9
        10

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
                     OIG audit staff will visit four posts in September and October to conduct fieldwork concurrently for audits to replace
         1           desktop computers and diplomatic facility telephone systems using ARRA funds. OIG will use the services of a telephone
                     system technical expert in conducting audit fieldwork at three of the four posts to be visited.

                     OIG will assist IPA conducting a performance audit of Worldwide Computer Security System Enhancements funded by
         2           ARRA. OIG staff will travel overseas to verify ARRA-funded equipment purchased for embassies that will provide next
                     generation secure telephones and security systems for computer system authentication and access controls.
Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of State - OIG
   Month Ending
                 08/31/2010
           Date:

                                                                      TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                      Training                  Length of                  Training
                                                 Target                                              Date of                 Number of                   Cost of
     No.               Type of Training                        Title of Training   Location (City,              Training                  Provided
                                                Audience                                             Training               Participants                 Training
                                                                                       State)                    (hours)                   (length x
                                                                                                                                         participants)
       1                                                                                                                                             0
      2                                                                                                                                              0
      3                                                                                                                                              0
      4                                                                                                                                              0
      5                                                                                                                                              0
      6                                                                                                                                              0
      7                                                                                                                                              0
      8                                                                                                                                              0
      9                                                                                                                                              0
      10                                                                                                                                             0
      11                                                                                                                                             0
      12                                                                                                                                             0
      13                                                                                                                                             0
      14                                                                                                                                             0
      15                                                                                                                                             0
                                                                                                                 TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                          Outreach
                    Organization to which                     Description of                          Date of
     No.                                      Represented at                       Location (City,
                     Outreach Provided                          Outreach                             Outreach
                                                Outreach                               State)
                                                 Session
       1
       2
       3
       4
       5
       6
       7
       8
       9
      10
